Mridula S. Raman
Clinical Supervising Attorney
DEATH PENALTY CLINIC
UNIVERSITY OF CALIFORNIA, BERKELEY
SCHOOL OF LAW
Berkeley, CA 94720
(510) 642-5748
mraman@berkeley.edu

April 6, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Jenkins v. Dunn, Case No. 20-6972

Dear Mr. Harris:
Pursuant to Supreme Court Rule 15.5 and the Court’s Order dated March 19,
2020, Petitioner in Jenkins v. Dunn, Case No. 20-6972, respectfully requests that the
Court delay distribution of his Petition for a Writ of Certiorari by 13 days, from April 15,
2021, to April 28, 2021. If the Court were to grant this request, the conference date
would then be May 13, 2021.
Petitioner requires additional time to file a reply brief based on substantial
logistical disturbances caused by the COVID-19 pandemic. These difficulties include
constraints on counsel’s access to office resources and counsel’s inability to
communicate in person with Petitioner, who is incarcerated on death row in a different
state.
Counsel for Respondent has stated that Respondent consents to this request.
Sincerely,

Mridula S. Raman
Counsel of Record for Petitioner

Page 2

cc:
Henry M. Johnson
Assistant Attorney General
Office of the Alabama Attorney General
501 Washington Avenue
Montgomery, AL 36130
(334) 242-7300
henry.johnson@alabamaag.gov
Counsel for Respondent
(by electronic mail)

